March 1, 2012

TO:             Jeannie Chaffin
                Director, Office of Community Services
                Administration for Children and Families


FROM:           /Kay L. Daly/
                Assistant Inspector General for Audit Services


SUBJECT:        Review of Community Services Block Grant Costs for the Period October 1,
                2007, Through September 30, 2010, Claimed for the Greater Lawrence
                Community Action Council, Inc. (A-01-11-02507)


Attached, for your information, is an advance copy of our final report to determine whether the
Massachusetts Department of Housing and Community Development (State agency) claimed
costs for the Greater Lawrence Community Action Council, Inc., that met the terms of the
Community Services Block Grant, Recovery Act, and applicable Federal requirements. We will
issue this report to the State agency within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me at
(202) 619-1157 or through email at Kay.Daly@oig.hhs.gov, or your staff may contact Michael J.
Armstrong, Regional Inspector General for Audit Services, at (617) 565-2689 or through email
at Michael.Armstrong@oig.hhs.gov. Please refer to report number A-01-11-02507.

Attachment
                                                               O FFICE OF A UDIT S ERVICES , R EGION I
                                                                             JFK F EDERAL B UILDING
March 2, 2012                                                 15 N EW S UDBURY S TREET , R OOM 2425
                                                                                B OSTON , MA 02203
Report Number: A-01-11-02507

Mr. Aaron Gornstein
Undersecretary
Massachusetts Department of Housing and Community Development
100 Cambridge Street, Suite 300
Boston, MA 02114

Dear Mr. Gornstein:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Community Services Block Grant Costs for the
Period October 1, 2007, Through September 30, 2010, Claimed for the Greater Lawrence
Community Action Council, Inc. We will forward a copy of this report to the HHS action official
noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact George Nedder, Audit Manager, at (617) 565-3463 or through email at
George.Nedder@oig.hhs.gov. Please refer to report number A-01-11-02507 in all
correspondence.

                                             Sincerely,



                                             /Michael J. Armstrong/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Aaron Gornstein


Direct Reply to HHS Action Official:

Ms. Jeannie Chaffin
Director, Office of Community Services
Administration for Children and Families
6th Floor, Aerospace Building
370 L’Enfant Promenade, S.W.
Washington, D.C. 20447
   Department of Health and Human Services
               OFFICE OF
          INSPECTOR GENERAL




  REVIEW OF COMMUNITY SERVICES
 BLOCK GRANT COSTS FOR THE PERIOD
     OCTOBER 1, 2007, THROUGH
SEPTEMBER 30, 2010, CLAIMED FOR THE
  GREATER LAWRENCE COMMUNITY
       ACTION COUNCIL, INC.




                          Daniel R. Levinson
                           Inspector General

                             March 2012
                            A-01-11-02507
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The Community Opportunities, Accountability, and Training and Educational Services Act of
1998 (P.L. 105-285) authorized the Community Services Block Grant (CSBG) program to
provide funds to alleviate the causes and conditions of poverty in communities. Within the U.S.
Department of Health and Human Services, the Administration for Children and Families (ACF),
Office of Community Services, administers the CSBG program. The CSBG program funds a
State-administered network of more than 1,000 local Community Action Agencies (CAA) that
create, coordinate, and deliver programs and services to low-income Americans. Under the
American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5, enacted
February 17, 2009, ACF received an additional $1 billion for the CSBG program for States to
alleviate causes and conditions of poverty in communities. The CSBG Recovery Act program
covers the period July 1, 2009, through September 30, 2010.

Federal regulations (45 CFR § 74.21(b)) require that each grantee’s financial management
system provides (1) accurate, current, and complete disclosure of the financial results of each
program; (2) records that identify adequately the source and application of Federal funds; (3)
effective control over and accountability for all funds, property, and other assets to ensure they
are used solely for authorized purposes; (4) procedures for determining the reasonableness,
allocability, and allowability of costs; and (5) accounting records that are supported by source
documentation. In addition, pursuant to 2 CFR § 230, App. A, costs must be reasonable for the
performance of the award and conform to any limitations set forth in the award; costs shared by
multiple programs are allocable to an award in accordance with the relative benefits received.

The Massachusetts Department of Housing and Community Development (State agency) is the
lead agency for the State’s CSBG program. The State agency is responsible for approving the
CSBG and CSBG Recovery Act program applications and monitoring CAAs for compliance.
The State agency submits quarterly fiscal reports to ACF for the CSBG and CSBG Recovery Act
programs based on quarterly expenditure information from CAAs.

Greater Lawrence Community Action Council, Inc. (GLCAC), is a nonprofit CAA that offers
services to low-income families and individuals throughout the Greater Lawrence and lower
Merrimack Valley area of Massachusetts. Our review covered $1,576,601 in CSBG and CSBG
Recovery Act program funds that the State agency claimed for GLCAC for the period October 1,
2007, through September 30, 2010.

OBJECTIVE

Our objective was to determine whether the State agency claimed costs for GLCAC that met the
terms of the CSBG and CSBG Recovery Act grants and applicable Federal requirements.




                                                 i
SUMMARY OF FINDINGS

Of the $1,576,601 in State agency claims for GLCAC, we found that $1,352,491 met the terms
of the CSBG and CSBG Recovery Act grants and applicable Federal requirements. However,
the State agency’s claims for GLCAC included $148,144 for personal compensation that did not
reflect actual activities performed, $7,642 for building rent costs that were allocated incorrectly,
and $1,383 for tax-assistance consultant services to ineligible individuals.

As a result, the State agency overstated its claim to the CSBG and CSBG Recovery Act grants by
a total of $157,169.

In addition, the documentation from GLCAC was inadequate for us to determine whether
$66,941 in compensation, occupancy, and rent costs were allocated correctly under the terms of
the grants and applicable Federal requirements. We are deferring the questionable allocation to
the State agency to determine the correct allocation or make a financial adjustment to ACF.

These deficiencies occurred because GLCAC did not have adequate policies and procedures and
related internal controls to ensure that it claimed costs that met the terms of the grants and
applicable Federal requirements.

RECOMMENDATIONS

We recommend that the State agency:

   •   make a financial adjustment to ACF of $157,169 for GLCAC costs that did not meet the
       terms of the CSBG and CSBG Recovery Act grants and applicable Federal requirements,

   •   work with GLCAC to determine the correct allocation for claims of $66,941 identified in
       this report or make a financial adjustment to ACF, and

   •   ensure that GLCAC establishes policies, procedures, and related internal controls to:

           o comply with Federal requirements for timekeeping and payroll-distribution
             systems,

           o ensure that occupancy costs are supported by current space studies and allocated
             in accordance with generally accepted accounting principles (GAAP), and

           o ensure that only eligible clients receive services under the CSBG program.

GREATER LAWRENCE COMMUNITY ACTION COUNCIL, INC., COMMENTS

In written comments on our draft report, GLCAC concurred with our recommendations and
outlined the corrective actions it is taking with the State agency. GLCAC’s comments are
included in their entirety as Appendix A.


                                                 ii
STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our findings and
outlined steps for implementing our recommendations. The State agency’s comments are
included in their entirety as Appendix B.




                                               iii
                                                   TABLE OF CONTENTS
                                                                                                                                  Page

INTRODUCTION.................................................................................................................1

       BACKGROUND ...........................................................................................................1
          Community Services Block Grant Program .........................................................1
          Federal Regulations ..............................................................................................1
          Massachusetts Department of Housing and Community Development ...............1
          Greater Lawrence Community Action Council, Inc. ............................................2

       OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................2
           Objective ...............................................................................................................2
           Scope .....................................................................................................................2
           Methodology .........................................................................................................2

FINDINGS AND RECOMMENDATIONS .......................................................................3

       PERSONAL COMPENSATION...................................................................................4
           Federal Requirements ...........................................................................................4
           Unallowable Compensation Costs ........................................................................4
           Cause of Unallowable Compensation Costs .........................................................5

       RENT AND OCCUPANCY COSTS ............................................................................5
          Federal Requirements ...........................................................................................5
          Unallowable Rent Costs ........................................................................................5
          Cause of Unallowable Rent Costs.........................................................................6

       CONSULTANT COSTS ...............................................................................................6
          Federal Requirements ...........................................................................................6
          Unallowable Consultant Costs ..............................................................................6
          Cause of Unallowable Consultant Costs ...............................................................6

       RECOMMENDATIONS ...............................................................................................7

       GREATER LAWRENCE COMMUNITY ACTION
         COUNCIL, INC., COMMENTS ...............................................................................7

       STATE AGENCY COMMENTS ..................................................................................7

APPENDIXES

       A: GREATER LAWRENCE COMMUNITY ACTION COUNCIL, INC., COMMENTS

       B: STATE AGENCY COMMENTS



                                                                     iv
                                        INTRODUCTION

BACKGROUND

Community Services Block Grant Program

 The Community Opportunities, Accountability, and Training and Educational Services Act of
1998 (P.L. 105-285) authorized the Community Services Block Grant (CSBG) program to
provide funds to alleviate the causes and conditions of poverty in communities. Within the U.S.
Department of Health and Human Services, the Administration for Children and Families (ACF),
Office of Community Services, administers the CSBG program. The CSBG program funds a
State-administered network of more than 1,000 local Community Action Agencies (CAA) that
create, coordinate, and deliver programs and services to low-income Americans. CAAs provide
services and activities addressing employment, education, housing, nutrition, emergency
services, and the better use of available income.

Under the American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5,
enacted February 17, 2009, ACF received an additional $1 billion for the CSBG program for
States to alleviate causes and conditions of poverty in communities. Under the Recovery Act,
CSBG services may be expanded to those who are within 200 percent of the Federal poverty line
(FPL). The CSBG Recovery Act program covers the period July 1, 2009, through September 30,
2010.

Federal Regulations

Federal regulations (45 CFR § 74.21(b)) require that each grantee’s financial management
system provides (1) accurate, current, and complete disclosure of the financial results of each
program; (2) records that identify adequately the source and application of Federal funds; (3)
effective control over and accountability for all funds, property, and other assets to ensure they
are used solely for authorized purposes; (4) procedures for determining the reasonableness,
allocability, and allowability of costs; and (5) accounting records that are supported by source
documentation.

In addition, pursuant to 2 CFR § 230, App. A, 2, costs must be reasonable for the performance of
the award and conform to any limitations set forth in the award. Costs shared by multiple
programs are allocable to an award in accordance with the relative benefits received, pursuant to
2 CFR § 230, App. A, 4.

This review is part of a series of reviews planned by the Office of Inspector General to provide
oversight of Recovery Act funds.

Massachusetts Department of Housing and Community Development

The Massachusetts Department of Housing and Community Development (State agency) is the
lead agency for the State’s CSBG program. The State agency is responsible for approving
CSBG and CSBG Recovery Act program applications and monitoring CAAs for compliance.

                                                 1
The State agency receives Federal grant funds that it uses to pay for the costs of eligible CAA
programs. ACF awarded the State agency with an additional $24.9 million in CSBG Recovery
Act funds. The State agency submits quarterly fiscal reports to ACF for the CSBG and CSBG
Recovery Act programs based on quarterly expenditure information from CAAs.

Greater Lawrence Community Action Council, Inc.

Greater Lawrence Community Action Council, Inc. (GLCAC), is a nonprofit CAA organized to
offer services to low-income families and individuals. The agency is funded primarily through
Federal, State, and local grants. GLCAC also receives grant funds from private sources to
supplement Federal and State funding. GLCAC’s primary purpose is to operate numerous
antipoverty, low-income assistance, and social service programs to serve individuals throughout
the Greater Lawrence and lower Merrimack Valley area of Massachusetts. During fiscal years
(FY) 2008 through 2010, the State agency awarded GLCAC with $1,030,644 in CSBG grant
funds and a CSBG Recovery Act grant totaling $555,150 that covers the period July 1, 2009,
through September 30, 2010.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed costs for GLCAC that met the
terms of the CSBG and CSBG Recovery Act grants and applicable Federal requirements.

Scope

We conducted a review of GLCAC’s financial transactions and systems related the CSBG and
CSBG Recovery Act programs and related policies and procedures. We did not perform an
overall assessment of GLCAC’s internal control structure. Therefore, we reviewed only the
internal controls that pertained directly to our objective.

Our review covered $1,576,601 in CSBG and CSBG Recovery Act program funds that the State
agency claimed for GLCAC for the period October 1, 2007, through September 30, 2010.

We performed fieldwork at GLCAC’s facility in Lawrence, Massachusetts, from May to
November 2011.

Methodology

To accomplish our objective, we:

   •    reviewed Federal laws, regulations, and policy information for Federal grant awards and
        the CSBG program;




                                                2
   •   reviewed and analyzed GLCAC’s audited financial statements and audits conducted
       pursuant to OMB A-133 for FYs 2008, 2009, and 2010;

   •   reviewed GLCAC’s bylaws, board of director meeting minutes, organization chart,
       financial policies and procedures, and human resource policies and procedures;

   •   reviewed GLCAC’s chart of accounts and analyzed financial reports produced by
       GLCAC’s accounting system;

   •   reviewed the State agency’s report dated April 20, 2011, which included
       recommendations for corrective actions to be taken by GLCAC;

   •   judgmentally selected transactions (salaries and wages, fringe benefits costs, rent,
       occupancy costs, and consultant and other direct costs) to determine whether costs
       claimed were in accordance with Federal requirements and GLCAC’s policies and
       procedures; and

   •   interviewed GLCAC’s management, program, and financial staff.

We conducted our review in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

Of the $1,576,601 in State agency claims for GLCAC, we found that $1,352,491 met the terms
of the CSBG and CSBG Recovery Act grants and applicable Federal requirements. However,
the State agency’s claims for GLCAC included:

   •   $148,144 for personal compensation costs that did not reflect actual activities performed,

   •   $7,642 for building rent costs that were incorrectly allocated, and

   •   $1,383 for tax-assistance consultant services to ineligible individuals.

In addition, the documentation from GLCAC was inadequate for us to determine whether
$66,941 in compensation, occupancy, and rent costs were allocated correctly under the terms of
the grants and applicable Federal requirements. We are deferring the questionable allocation to
the State agency to determine the correct allocation or make a financial adjustment to ACF.

These deficiencies occurred because GLCAC did not have adequate policies and procedures and
related internal controls to ensure that it claimed costs that met the terms of the grants and
applicable Federal requirements.


                                                 3
PERSONAL COMPENSATION

Federal Requirements

Pursuant to 2 CFR § 230, App. B, § 8.a., on the definition of compensation for personal services,
“Compensation for personal services includes all compensation paid currently or accrued by the
organization for services of employees rendered during the period of the award (except as
otherwise provided in subparagraph 8.h. of this appendix). It includes, but is not limited to,
salaries, wages … incentive awards, fringe benefits, pension plan costs ….” Furthermore,
section 8.b., on allowability, states: “Except as otherwise specifically provided in this paragraph,
the costs of such compensation are allowable to the extent that total compensation to individual
employees is reasonable for the services rendered ….”

Pursuant to 2 CFR § 230, App. A, § A.2, on allowability, allowable costs must be adequately
documented. Furthermore, section A.4, on allocability, states that a cost is allocable to a
particular cost objective, such as a grant, contract, project, service, or other activity, in
accordance with the relative benefits received.

In addition, 2 CFR § 230, App. B, § 8.m., states that personnel activity reports or equivalent
documentation must (1) reflect an after-the-fact distribution of the actual activity of each
employee, (2) account for the total activity for which each employee is compensated, and (3) be
signed by the employee or by a responsible supervisory official having firsthand knowledge of
the activities performed.

Unallowable Compensation Costs

GLCAC submitted compensation costs to the State agency under the CSBG and CSBG Recovery
Act grants that did not represent actual services rendered or the actual activities provided based
on cost objectives. For four individuals, GLCAC submitted $278,510 in costs for salaries,
wages, related fringe benefits, and other costs. However, we reviewed supporting documentation
provided by GLCAC and determined that $148,144 of the claimed costs were unallowable or
inadequately supported, including the following:

•   For a grants manager, GLCAC submitted $57,707 in costs that were not in accordance with
    the relative benefits received and did not reflect the after-the-fact distribution of the actual
    activity of this employee. These costs were claimed incorrectly as direct costs to the CSBG
    Recovery Act when they should have been claimed to an indirect cost pool.

•   For an executive director, GLCAC submitted $57,282 in costs that were not in accordance
    with the relative benefits received, were not reasonable for the services rendered, and did not
    reflect the after-the-fact distribution of the actual activity of this employee. GLCAC
    calculated this employee’s claimed compensation of $110,972, for FYs 2008 through 2010,
    based on a 40-hour work week; however, according to GLCAC’s records, this employee
    worked approximately 50 percent of the time that was claimed.




                                                  4
•   For a program coordinator, GLCAC submitted $25,889 in costs that were not reasonable for
    the services rendered and did not reflect the after-the-fact distribution of the actual activity of
    this employee. GLCAC claimed 100 percent of this employee’s salary of $53,935, for FY
    2010, to the CSBG Recovery Act program; however, we determined that 48 percent of this
    employee’s time was associated with another nonprofit agency.

•   For a MassHealth coordinator, GLCAC submitted $7,266 in costs to the CSBG and CSBG
    Recovery Act that did not reflect the after-the-fact distribution of the actual activity of this
    employee. GLCAC could not support that the costs it claimed related to the CSBG
    programs.

In addition, the documentation from GLCAC was inadequate for us to determine whether the
State agency correctly claimed $52,351 in compensation for a housing coordinator under the
terms of the CSBG Recovery Act and applicable Federal requirements. We are deferring the
questionable allocation to the State agency to determine the correct allocation or make a financial
adjustment to ACF.

Cause of Unallowable Compensation Costs

These deficiencies occurred because GLCAC did not have a timekeeping and payroll-
distribution system or procedures that complied with Federal requirements. GLCAC’s personnel
activity reports or equivalent documentation did not (1) reflect an after-the-fact distribution of
the actual activity of each employee, (2) account for the total activity for which each employee is
compensated, and (3) include a signature by the employee or by a responsible supervisory
official having firsthand knowledge of the activities performed.

As a result, the State agency claimed $148,144 in costs for GLCAC that did not meet the terms
of the grant awards or applicable Federal requirements.

RENT AND OCCUPANCY COSTS

Federal Requirements

Pursuant to 2 CFR § 230, App. A, pt. A.2., on allowability of costs, to be allowable under an
award, costs must be determined in accordance with generally accepted accounting principles
(GAAP) and adequately documented.

In addition, 2 CFR § 230, App. A, pt. 4, on allocable costs, states that a cost is allocable to a
particular cost objective, such as a grant, contract, project, service, or other activity, in
accordance with the relative benefits received.

Unallowable Rent Costs

For FY 2010, GLCAC submitted rent costs to the State agency under the CSBG Recovery Act
that were not determined in accordance with GAAP or adequately documented. For one facility,


                                                   5
GLCAC submitted $27,925 in rent costs. However, we determined that GLCAC overstated the
percentage allocated to the CSBG program by approximately 27 percent or $7,642.

In addition, the documentation from GLCAC was inadequate for us to determine whether the
State agency correctly claimed $14,590 in rent and occupancy costs for three facilities under the
terms of the CSBG Recovery Act and applicable Federal requirements. We are deferring the
questionable allocation to the State agency to determine the correct allocation or make a financial
adjustment to ACF.

Cause of Unallowable Rent Costs

These deficiencies occurred because GLCAC did not have procedures to ensure that it
adequately supported rent and occupancy costs by current space studies and that it equitably
allocated rent and occupancy costs to all benefiting programs.

As a result, the State agency claimed $7,642 in costs for GLCAC that did not meet the terms of
the grant awards or applicable Federal requirements.

CONSULTANT COSTS

Federal Requirements

The Recovery Act, section 673(2), amended the CSBG Act to provide services during FYs 2009
and 2010 to families and individuals who are within 200 percent of the FPL.

Pursuant to Massachusetts General Laws 760.29.03, the State agency’s approved CSBG State
plan requires that each CAA conduct activities only within the cities and towns in its service
area.

Unallowable Consultant Costs

Under the CSBG Recovery Act, GLCAC submitted to the State agency $1,383 in costs for tax-
assistance consulting services to ineligible individuals. GLCAC submitted $7,681 in costs for
367 individuals or households that received the tax-assistance consulting services. However, we
identified 67 cases (approximately 18 percent) that exceeded the CSBG Recovery Act’s FPL
limit or did not reside in the CAA’s service area. Of the 67 ineligible cases, 51 had incomes that
exceeded 200 percent of the FPL and 16 resided outside of GLCAC’s service area.

Cause of Unallowable Consultant Costs

These deficiencies occurred because GLCAC did not have established procedures to screen for
eligible CSBG clients.

As a result, the State agency claimed $1,383 in costs for GLCAC that did not meet the terms of
the grant awards or applicable Federal requirements.



                                                6
RECOMMENDATIONS

We recommend that the State agency:

   •   make a financial adjustment to ACF of $157,169 for GLCAC costs that did not meet the
       terms of the CSBG and CSBG Recovery Act grants and applicable Federal requirements,

   •   work with GLCAC to determine the correct allocation for claims of $66,941 identified in
       this report or make a financial adjustment to ACF, and

   •   ensure that GLCAC establishes policies, procedures, and related internal controls to:

           o comply with Federal requirements for timekeeping and payroll-distribution
             systems,

           o ensure that occupancy costs are supported by current space studies and allocated
             in accordance with GAAP, and

           o ensure that only eligible clients receive services under the CSBG program.

GREATER LAWRENCE COMMUNITY ACTION COUNCIL, INC., COMMENTS

In written comments on our draft report, GLCAC concurred with our recommendations and
outlined the corrective actions it is taking with the State agency. GLCAC’s comments are
included in their entirety as Appendix A.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our findings and
outlined steps for implementing our recommendations. The State agency’s comments are
included in their entirety as Appendix B.




                                               7
APPENDIXES
 APPENDIX A: GREATER LAWRENCE COMMUNITY ACTION COUNCIL, INC., COMMENTS
                                                            Page 1 of 4

                                    Greater Lawren~~~~~;;~~~~~;ouncil, Inc.                             ~~)
                                        305 Essex Street, Lawrence, Massachusetts 01840                 ~ ., J!.
                                       Telephone: (978) 681-4900 FAX: (978) 681-4949                     m::p"::;:::"~~
                                                 WEBSITE: www.glcac.org
                                                                                                            one mission
                                                                                                                          t
                                                                                                                          I~
   Christian W . Dame.
                                                                                          BOARD OF DIRECTORS
                                                                                              DR. THOMAS S.
                                                                                                                          I
   Interim Executive Director/CEO
                                                                                              PERRAULT. SR.
                                                                                                 President

                                                                                           Cheryl Ann Matthews
                                                                                              Vice President
                                                                                              NATALIE COON
       January 13, 2012                                                                        TREASURER

                                                                                           HE LEN A NN KNEPPER
                                                                                                Secretary

       Michael J. Armstrong
       Regional Inspector General for Audit Services
       Department of Health & Human Services
       Office of Inspector General
       Office of Audit Services, Region I
       John F. Kennedy Federal Building, Rm. 2425
       Boston, MA 02203


       RE :        GLCAC Inc. Response to Report Number: A-01-11-02507



       Dear Mr. Armstrong:

       Thank you for your letter of December 29, 2011 transmitting the Review of Community Service
       Block Grant Costs for the Period from October 1, 2007 through September 30, 2010 Claimed for
       the Greater Lawrence Community Action Council , Incorporated.

       Attached please find our responses to your draft findings. Thank you for the opportunity to
       provide a response.




       Since~ ,



-.......--"_ ,·,~tian
                W . Dame
       Interim Executive Director
                                                                            Page 2 of 4

               Greater Lawrence Community Action Council, Inc.
                 Response to Report Number: A-01-11-02507


PERSONAL COMPENSATION


   1) Finding: $57, 707 for a Grants Manager charged as "direct cost" to
      CSBG Recovery Act when they should have been claimed to an
      indirect cost pool...

GLCAC Response: We concur with this finding.


Our Corrective Action Plan (CAP) for this finding is:
         a) to return $57,707 in disallowed costs
         b) to shift $57,707 in personnel costs to the Indirect Cost pool for the
             period in question; and
         c) commencing in December 2011, implement a time, attendance
             and grant allocation payroll system that accurately reports
             employee time expenditures by grant source, and adopt additional
             internal controls at the supervisory level to ensure that employee
             time charges to grant sources are accurately reported.


   2) Finding: For an Executive Director $57,282 in costs that were not in
      accordance with benefits received, and did not reflect after-the-fact
      distribution of actual activities ...

   GLCAC Response: We concur with this finding.


Our Corrective Action Plan (CAP) for this finding is:
      a) to return $57,282 in disallowed Executive Director (ED) costs
      b) to continue the recently enacted practice of documenting to the Board
         of Directors the after-the-fact actual time spent by the ED on agency
         business


   3) Finding: For a program coordinator $25,889 in costs were not
      reasonable and did not reflect after-the-fact distribution of actual
      activities ... 48% of this employee's time was associated with another
      nonprofit agency.

GLCAC Response: We concur with this finding.

Our Corrective Action Plan (CAP) for this finding is:
      a) GLCAC will return $25,889 in disallowed costs



                                        1
                                                                             Page 3 of 4

                Greater Lawrence Community Action Council, Inc.
                  Response to Report Number: A-01-11-02507

       b) The corrective action that GLCAC has implemented on this matter is to
          discontinue serving as fiscal agent for the other nonprofit and to assure
          that the duties of the employee in question have no further association
          with this nonprofit.


   4) Finding: For MassHealth $7,266 in CSBG and CSBG Recovery Act
      costs did not reflect after-the-fact distribution of actual activities ...

GLCAC Response: We concur with this finding.

Our Corrective Action Plan (CAP) for this finding is:
      a) GLCAC will return $7,266 in disallowed costs



RENT AND OCCUPANCY COSTS

   5) Finding: 1) GLCAC did not have current space studies to support
      rent and occupancy costs of $7,642 and 2) it did not equitably
      allocate rent and occupancy costs to all benefiting programs

GLCAC Response: We concur with this finding.

Our Corrective Action Plan (CAP) for this finding is:
      a) GLCAC will return $7,642 in disallowed costs
      b) In response to this finding GLCAC has completed a comprehensive
         space allocation study for all programs at all locations, adopted revised
         provisions to charge all programs space and occupancy cost to the
         extent they are allowable, and to cover all non-allowable costs with
         non-CS8G funding raised from other sources.

6) Finding: GLCAC submitted $1,383 in cost for taxpayer assistance
consulting services to 67 ineligible individuals - persons whose income
exceeded 200 percent of the federal poverty level or who lived outside
GLCAC's service area.

GLCAC Response: We concur with this finding.

Our Corrective Action Plan (CAP) for this finding is:

       a)       GLCAC will return $1,383 in disallowed costs
       b)       As a corrective action GLCAC has suspended participation in the
                taxpayer assistance program




                                         2
                                                                          Page 4 of 4

              Greater Lawrence Community Action Council, Inc.
                Response to Report Number: A-01-11-02507

RECOMMENDATIONS


GLCAC Response:

  1) As described above GLCAC agrees to make a financial adjustment to
     DHCD of $157,169 for the disallowed costs;
  2) As directed GLCAC will work with ACF to determine the correct allocation
     for claims of $66,991. Please advise as to the specific office and official
     with whom GLCAC should open discussions on these matters; and
  3) As described above GLCAC has implemented a corrective action plan to
     address the identified policies and procedures:
         a. GLCAC is implementing a revised timekeeping and payroll
             distribution system which fully meets federal requirements
         b. GLCAC has completed a revised space study for all programs at all
             locations to ensure that occupancy costs are allocated in
             accordance with GAAP; and
         c. GLCAC is developing new client income verification systems,
             including the Commonwealth's BECS system, to ensure that only
             eligible clients receive services under CSBG programs.

END




                                      3
                                  APPENDIX B: STATE AGENCY COMMENTS
                                                                                                                      Page 1 of 2

                                                     Commonwealth of Massachusetts
                                             DEPARTMENT OF HOUSING &
                                             COMMUNITY DEVELOPMENT
                                    Deva! L. Patrick, Governor •   Timothy P. Murray, Lt. Governor •   Aaron Gornstein, Undersecretary




      Michael 1. Armstrong
      Regional Inspector General for Audit Services
      Office of the Inspector General
      John F. Kennedy Federal Building
      Room 2425
      Boston, MA 02203

      Re: Response to Report Number: A-Ol-l1-02507

      Dear Mr. Armstrong:

      The Department of Housing and Community Development (DHCD) is in receipt of the draft report
      entitled Review o/Community Service Block Grant Costs/or the Period From October 1,2007, Through
      September 30,2010, Claimed/or the Greater Lawrence Community Action Council, Inc. (Report).

      We appreciate the opportunity to respond. We are pleased that Greater Lawrence Community Action
      Council, Inc. (GLCAC) has concurred with your findings and has acknowledged a willingness to repay the
      Unallowable Costs identified in the Report. DHCD is in agreement with the recommendations in the
      Report and will seek repayment of those costs from GLCAC in order to make the appropriate frnancial
      adjustments to the Federal Administration for Children and Families (ACF).

      In response to the recommendations, we offer the following:

      Recommendation # 1: Make a financial adjustment to ACF of $157,169 for GLCAC costs that did not
      meet the terms ofthe CSBG and CSBG Recovery Act grants and applicable Federal requirements.

               Response: DHCD concurs with this recommendation, and will seek repayment from GLCAC in
               the amount of$157,169, an amount GLCAC has already agreed to return to DHCD. With the
               returned funds, DHCD will make the appropriate fmancial adjustment.

      Recommendation #2: Work with GLCAC to determine the correct allocation for claims 0[$66,991
      identified in the Report or make a frnancial adjustment to ACF.

               Response: DHCD concurs with this recommendation and upon the determination of the correct
               allocation for claims of $66,991 will seek repayment from GLCAC in the appropriate amount, as




100 Cambridge Street, Suite 300                                                                                   www.rnass.gov/dhcd
Boston, Massachusetts 02114                                                                                       617.573.1100
                                                                                       Page 2 of 2

       already agreed to by GLCAC. With the returned funds, DHCD will make the appropriate financial
       adjustment.

Recommendation #3: Ensure that GLCAC establishes policies, procedures, and related internal controls
to: comply with Federal requirements for timekeeping and payroll-distribution systems, ensure that
occupancy costs are supported by current space studies and allocated in accordance with generally
accepted accounting principles (GAAP), and ensure that only eligible clients receive services under the
CSBG program.

       Response: DHCD concurs with this recommendation. In March 2011, DHCD conducted an
       investigation and risk management assessment of GLCAC and identified the need to implement
       policies and procedures, related internal controls, and other measures to ensure the integrity of
       GLCAC as a designated eligible entity as well as an administrator ofCSBG funds. As oftoday's
       date, GLCAC has satisfactorily completed 30 of the 40 recommendations cited in DHCD's
       investigative report, and work on the remaining 10 items is underway with assigned completion
       dates.

       As a result of the mutual collaboration of organizations such as the Northeast Institute for Quality
       Community Assistance (NIQCA), and the Massachusetts Association for Community Action
       (MASSCAP), DHCD is encouraged by GLCAC's efforts to establish best practices, and its
       progress in instituting policies and procedures that will ensure GLCAC operates in full compliance
       with State and Federal requirements.

In closing, I would like to thank you for the opportunity to address the findings of your investigation.
DHCD will continue to monitor the transition of GLCAC closely; we anticipate a more stable board and
executive leadership, which will ensure that CSBG funding is properly administered and that appropriate
services are provided to eligible families and individuals in the covered communities.


Sincerely,




Aaron Gornstein
Undersecretary
